Appendix A: REPORT AND RECOMMENDATION ON DEFENDANTS' MOTION
TO DISMISS

L

REPORT AND RECOMMENDATION
ON DEFENDANTS' MOTION TO DISMISS

-i : r

r.

SK ' ' - % *

A-2

'*T“ '

Case 4:16-cv-00307 Document 67 Filed in TXSD on 11/21/17 Page lot 25
United States District Court
Southern District of Texas

ENTERED
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF TEXAS
HOUSTON DIVISION
JOHN J. DIERLAM,

Plaintiff,
v.
DONALD TRUMP,1 in his official
capacity as President of the United
States, et al.,
Defendants.

§
§
§
§
§
§
§
§
§
§
§
§

November 21,2017
David J. Bradley, Clerk

CASE NO. 4:16-CV-307

REPORT AND RECOMMENDATION
ON DEFENDANTS* MOTION TO DISMISS
Before the Court is Defendants’ Motion to Dismiss Plaintiff’s First
Amended Complaint. ECF No. 37.2 Plaintiff’s suit challenges Defendants’
1 On February 4, 2016, Plaintiff filed suit against Defendants Barack Hussein Obama, in his
official capacity as the president of the United States; the United States Department of Health
and Human Services (“HHS”); Sylvia Mathews Burwell, in her official capacity as Secretary of
HHS; the United States Department of the Treasury (“the Treasury”); Jacob J. Lew, in his
official capacity as Secretary of the Treasury; the United States Department of Labor (“Labor”);_
~~ and Thomas E. Perez, in his official capacity as Secretary of Labor. On January 20, 2017,
Donald Trump succeeded President Obama as President of the United States..Pursuant to.Federal___
Rule of Civil Procedure 25(d), President Trump, Acting Secretary of HHS Eric D. Hargan,
Secretary of the Treasury Steven Mnuchin, and Secretary of Labor Alexander Acosta have been
substituted as named Defendants in this action.
2 On May 26, 2016, Defendants filed a motion to dismiss Plaintiff’s original complaint under
Fed. R. Civ. P. 12(b)(1) and 12(b)(6), which Plaintiff opposed and sought leave to amend. ECF
No. 18, see ECF Nos. 27, 28. The Court granted Plaintiff leave to amend. ECF No. 29. On
July 18, 2016, Plaintiff filed his First Amended Complaint (“Complaint”). On October 3, 2017,
this case was reassigned to Judge Ellison after Judge Hoyt recused himself. ECF Nos. 62, 63. On
October 16, 2017, the Court referred the Defendants’ pending motion to dismiss to this Court for
a report and recommendation in accordance with 28 U.S.C. § 636(b)(1)(B).
1

Case 4:16-cv-00307 Document 67 Filed in TXSD on 11/21/17 Page 2 of 25

implementation of minimum essential coverage provision of the Patient Protection
and Affordable Care Act (“ACA”), as well as the constitutionality of the individual
mandate and the contraceptive services mandate. Pl.’s Amend. Compl., ECF No.
32. Because Plaintiff’s claims are now moot and he has failed to allege a
substantial burden on his religious beliefs, the Court recommends that Plaintiff’s
claims be dismissed.
I.

BACKGROUND

Plaintiff John J. Dierlam is a lifelong Roman Catholic.3 Plaintiff opposes the
use, funding, provision, and support of contraceptives. Plaintiff asserts that paying
for or participating in a health insurance plan that provides coverage for
contraceptives violates his sincerely-held religious beliefs. Plaintiff believes that
life begins at conception, that the “practice of abortion, contraception, and
sterilization [is] reprehensible and sinful,” and that “supporting these activities
even indirecdy” is contrary to the teachings of the Catholic Church. Id. at 6.
In 2012, Plaintiff was employed by ZXP Technologies (“ZXP”). At that
time, he was enrolled in his employer-provided medical, dental, and vision
insurance plans. Id. at 3. During the open enrollment period in the fall of 2012,
Plaintiff learned that the medical insurance plans ZXP offered had changed for the
For the purposes of deciding this motion to dismiss, Plaintiff’s factual allegations are taken as
true. Brown v. Bd. of Trustees Sealy Indep. Sch. Dist., 871 F. Supp. 2d 581, 590 (S.D. Tex. 2012)
(citing Ashcroft v. Iqbal, 556 U.S. 662, 678 (2009) (Ellison, J.).
2

Case 4:16-cv-00307 Document 67 Filed in TXSD on 11/21/17 Page 3 of 25

upcoming year. In particular, Plaintiff asserts, “contraceptive coverage had been
expanded and some abortion services probably would be covered within the next
year.” Id. at 3-4. Plaintiff “decided to follow the teachings of [his] faith, drop
medical coverage, and thereby not support these services through payment of
premiums and fees.”4 Id. at 4. Plaintiff apparently made this decision without first
obtaining replacement insurance.
Plaintiff attempted to find insurance that would provide coverage consistent
with his faith. Id. at 5. First, he contacted at least three health insurance providers,
but their plans included coverage for contraceptives. Id. Next, Plaintiff contacted a
Christian medical bill sharing organization. Although this group provided coverage
consistent with his religious beliefs, Plaintiff did not join the organization because
he found the required Protestant affirmation inconsistent with his beliefs. Id.
Finally, Plaintiff contacted an insurance representative for the State of Texas, who
“indicated [that] they could not help” Plaintiff find suitable health insurance
coverage. Id. Plaintiff subsequently “ceased all efforts” to obtain health insurance.
Id. In both April 2014 and April 2015, pursuant to the ACA, Plaintiff was required
to pay a penalty, termed a “shared responsibility payment,” because he did not
have the required coverage. Id. at 10.

4 Plaintiff maintained enrollment in his dental and vision insurance plans “as there were no moral
implications to do[ing] so.” ECF No. 32 at 4.
3

Case 4:16-cv-00307 Document 67 Filed in TXSD on 11/21/17 Page 4 of 25

In his Complaint, Plaintiff challenges both the minimum essential coverage
provision (the individual mandate) and the preventive services provision of the
ACA that requires contraceptive coverage (the contraceptive mandate) based on
his religious objection to participating in any health insurance plan that includes
coverage for contraceptive services. Plaintiff seeks a declaration pursuant to
28 U.S.C. §§ 2201-2202 that the individual insurance mandate of the ACA is
unconstitutional based on the Religious Freedom Restoration Act (“RFRA”), the
Establishment Clause of the First Amendment, the Equal Protection Clause of the
Fourteenth Amendment, the Free Exercise Clause of the First Amendment, the
Taxing and Spending Clause,5 the Due Process Clause of the Fifth Amendment,
and the “right to privacy and association.”6 ECF No. 32. Based on these same
constitutional challenges, Plaintiff also seeks injunctive relief against enforcement
of the individual mandate and an order requiring the Internal Revenue Service

5 The United States Supreme Court already determined that the ACA’s individual mandate is
constitutional under Congress’ power to tax and spend. Nat’l Fed’n of Indep. Bus. v. Sebelius
(“NFIB”), 567 U.S. 519, 574 (2012).
g

To the extent that Plaintiff claims that the ACA forces him to enter into a contract, thus
violating his “right to privacy and association,” thus necessitating the refund of his shared
responsibility payments, his claim fails to state a claim upon which relief can be granted and
must be dismissed. ECF No. 32 at 17. The ACA does not require Plaintiff to enter into a contract,
as he was never required to purchase health insurance. The Supreme Court has explained that if a
person “chooses to pay [a shared responsibility payment] rather than obtain health insurance,
they have fully complied with the law.” NFIB, 132 S. Ct. at 2597. Here, Plaintiff was able to
avoid entering into a contract by making shared responsibility payments, and therefore his rights
of privacy and association were not infringed.
4

Case 4:16-cv-00307 Document 67 Filed in TXSD on 11/21/17 Page 5 of 25

(“IRS”) to refund his shared responsibility payment. Id.7
II.

STANDARD OF REVIEW

Defendants contend that all of the claims in Plaintiff’s Complaint (other than
the § 1502(c) claim) should be dismissed for failure to state a claim for relief.
Defs.’ Motion to Dismiss, ECF No. 37.
A court may dismiss a complaint for “failure to state a claim upon which
relief can be granted.” Fed. R. Civ. P. 12(b)(6). “Under Federal Rule of Civil
Procedure 8(a)(2), a pleading must contain a ‘short and plain statement of the
claim showing that the pleader is entitled to relief.’” Ashcroft v. Iqbal, 556 U.S.
662, 677-78 (2009). However, “[m]otions to dismiss under Rule 12(b)(6) are
viewed with disfavor and are rarely granted.” Lormand v. U.S. Unwired, Inc., 565
F.3d 228, 232 (5th Cir. 2009) (citation omitted); Duke Energy Intern., L.L.C. v.
Napoli, 748 F. Supp. 2d 656 (S.D. Tex. 2010) (Adas, J.). “To survive a Rule
12(b)(6) motion to dismiss, a complaint ‘does not need detailed factual
allegations,’ but must provide the plaintiff’s grounds for entitlement to relief including factual allegations that when assumed to be true ‘raise a right to relief
y

Plaintiff also asserts a claim under § 1502, alleging that Defendants failed to provide him with
the required statutory notice of services available through the Texas state health insurance
exchange. See 42 U.S.C. § 18092 (hereinafter “§ 1502(c)”). Defendants’ motion seeks dismissal
of this claim under Rule 12(b)(1) for lack of jurisdiction. ECF No. 37 at 11-15. Plaintiff
concedes, however, that Congress did not create a private right of action to remedy lack of
notice. ECF No. 32 at 9. Thus, this claim should be dismissed.
5

Case 4:16-cv-00307 Document 67 Filed in TXSD on 11/21/17 Page 6 of 25

above the speculative level.”’ CuIIiver v. Taylor, 503 F.3d 397, 401 (5th Cir.
2007) (quoting Bell Atl. Corp. v. Twombly, 550 U.S. 544, 555 (2007)).

The

complaint must include more than mere “labels and conclusions, and a formulaic
recitation of the elements of a cause of action will not do.” Twombly, 550 U.S. at
555 (internal quotation marks and citations omitted). That is, a complaint must
“contain sufficient factual matter, accepted as true, to ‘state a claim to relief that is
plausible on its face.’” Iqbal, 556 U.S. at 678 (2009) (quoting Twombly, 550 U.S.
at 570).
The ultimate question for the court to decide is whether the complaint states
a valid claim when viewed in the light most favorable to the plaintiff. The court
must accept well-pleaded facts as true, but legal conclusions are not entitled to the
same assumption of truth. Id. at 678.
III.

DISCUSSION

In 2010, Congress passed the AC A. Pub.L. No. 111-148, 124 Stat. 119
(2010). The ACA was intended to “increase the number of Americans covered by
health insurance and decrease the cost of health care.” NFIB, 567 U.S. at 538.
ACA requires non-grandfathered group health plans and insurance providers to
cover four categories of preventative health services, without cost-sharing. One of
these four categories is “preventative care and screenings” for women, requiring
every group health plan and insurance provider to cover “all Food and Drug
6

Case 4:16-cv-00307 Document 67 Filed in TXSD on 11/21/17 Page 7 of 25

Administration approved contraceptive methods and sterilization procedures,” a
requirement known as the “contraceptive mandate.”8 See 42 U.S.C. § 300gg13(a)(4); 77 Fed. Reg. 8725, 8726 (Feb. 15, 2012). It does not require anything
from the employee or insured. Real Alternatives, Inc. v. Secretary Department of
Health and Human Services, 867 F.3d 338, 344 (3d. Cir. 2017).
The ACA individual mandate requires an “applicable individual” to maintain
minimum essential coverage, receive an exemption from the coverage requirement,
or make a shared responsibility payment. 26 U.S.C. § 5000A; see NFIB, 567 U.S.
at 539. An “applicable individual” is any individual except one who qualifies for a
religious exemption, is not lawfully present, or is incarcerated. 26 U.S.C.
§ 5000A(d).
Here, Plaintiff challenges the individual mandate and the preventive services
coverage provision. Plaintiff’s claims stem from his religious objection to
contraceptive services, and his refusal to participate in any health insurance plan
-that conforms to the requirements of the contraceptive-mandate. —
A.

The Department of Health and Human Services’ Recent Rule Renders
Plaintiff’s Claims for Injunctive and Declaratory Relief Moot.
The Constitution-of the United States limits the jurisdiction of the federal

courts to “[cjases” and “[cjontroversies.” U.S. Const., art. Ill, § 2. The “case or

This requirement does not apply to “grandfathered” group health plans.
7

Case 4:16-cv-00307 Document 67 Filed in TXSD on 11/21/17 Page 8 of 25

controversy” requirement demands that a cause of action before a federal court
present a justiciable controversy. “No justiciable controversy is presented ... when
the question sought to be adjudicated has been mooted by subsequent
developments.” Flast v. Cohen, 392 U.S. 83, 95 (1968). The Fifth Circuit has held
that the promulgation of new regulations may render moot “what was once a viable
case.” Sannon v. U.S., 631 F.2d 1247, 1250-51 (5th Cir. 1980). A federal court has
an obligation to raise the issue of mootness, sua sponte, “if the facts suggest
mootness notwithstanding the silence of the parties with respect to the issue.”
Dailey v. Vought Aircraft Co., 141 F. 3d 224, 227 (5th Cir. 1998).
In considering Plaintiff’s claims, the Court is mindful of the premise that
pro se litigants’ allegations must be liberally construed so as to ensure that their
claims are not unfairly dismissed. See Erickson v. Pardus, 551 U.S. 89, 94 (2007).
However, a pro se litigant is not “exempt. . . from compliance with the relevant
rules of procedural and substantive law.” Birl v. Estelle, 660 F.2d 592, 593 (5th
Cir. 1981).
In this case, even the most liberal construction cannot prevent dismissal, as
the new rule moots Plaintiff’s claims. On May 4, 2017, more than a year after
Plaintiff filed his Complaint and Defendants filed their motion to dismiss,
President Trump issued an executive order, instructing the Secretary of Health and
Human Services (“HHS”) to consider enacting amended regulations to address
8

Case 4:16-cv-00307 Document 67 Filed in TXSD on 11/21/17 Page 9 of 25

conscience-based objections to the contraceptive mandate. “Executive Order
Promoting Free Speech and Religious Liberty,” Exec. Order No. 13798, 82 Fed.
Reg. 21675 (May 4, 2017). Within months, HHS issued an interim final rule,
effective October 6, 2017, providing an exemption for (1) individuals who have
sincerely held religious objections to contraceptives (2) whose employers or health
insurance issuers “are willing to offer a policy accommodating the objecting
individual.” 45 C.F.R. Part 147(II)(C)(2).
The adoption of this rule rendered Plaintiff’s claims for injunctive and
declaratory relief moot, as Plaintiff can satisfy both prongs of this exemption. The
sincerity of Plaintiff’s religious objection to contraception is not in dispute. ECF
No. 37 at 17. Under the interim rule, individuals who object on religious grounds
are exempt from purchasing health insurance plans that offer coverage for
contraceptive services, and instead can purchase health insurance that does not
cover contraceptive services.
The sole issue is whether Plaintiff- can obtain such coverage-Plain tiff alleged
that he searched for such coverage in 2014, but was unable to locate any coverage
options that conformed to his religious beliefs. He did find a Christian bill sharing
ministry, but did not believe that the required affirmation was consistent with his
Catholic faith. However, Plaintiff apparendy overlooked a Catholic health care
sharing ministry that offers—and has offered since at least October 2014—a
9

Case 4:16-cv-00307 Document 67 Filed in TXSD on 11/21/17 Page 10 of 25

“health care option . . . [consistent with Catholic teaching.”9 Thus, Plaintiff may
join the Catholic sharing ministry without violating his religious beliefs. In
addition, because of this new exemption under the interim rule, the health care
marketplace will adapt, if it has not done so to date, to provide insurance plans that
do not cover contraceptive services. See, e.g., Real Alternatives, 867 F.3d at 346
(employer represented that its insurer would be willing to provide a plan that omits
contraceptive coverage); March for Life v. Burwell, 128 F.Supp.3d 116, 132
(D.D.C. 2015) (representing that the employer would offer such insurance to its
employees). The adoption of the interim final rule, and the immediate availability
of a Catholic health care sharing ministry, has rendered Plaintiff’s claims for
injunctive and declaratory relief moot.
B.

Plaintiff Is Not Entitled to a Refund Of His Shared Responsibility
Payment Because the Individual Mandate Did Not Impose a Substantial
Burden On His Exercise of Religion.
Having determined that Plaintiff’s claims for injunctive and declaratory

relief are moot, the Court turns next to Plaintiff’s request for a refund of his shared
9 In ruling on a Rule 12(b)(6) motion to dismiss, courts may “ordinarily examine . . . matters of
which a court may take judicial notice.” Tellabs, Inc. v. Makor Issues & Rights, Ltd., 551 U.S.
308, 322 (2007). Under Federal Rule of Evidence 201(b), a judicially noticed fact “must be one
not subject to reasonable dispute in that it is either (1) generally known within the territorial
jurisdiction of the trial court or (2) capable of accurate and ready determination by resort to
sources whose accuracy cannot reasonably be questioned.” Fed. R. Evid. 201(b). In this case, the
Court takes judicial notice of the existence of Christus Medical Foundation Curo, a Catholic
health care sharing ministry that is exempt from ACA’s individual mandate and offers financial
protection to its members for health care costs on a basis that is consistent with the Catholic
faith. About CMF Curo, Christ Medicus Foundation, https://cmfcuro.com/about-cmf-curo
(last visited Nov. 17, 2017).
10

Case 4:16-cv-00307 Document 67 Filed in TXSD on 11/21/17 Page 11 of 25

responsibility payments for 2014 and 2015. Plaintiff has paid in full the shared
responsibility payment he owed under the ACA. Therefore, this Court has
jurisdiction. Flora v. United States, 362 U.S. 145, 146 (1960) (concluding that full
payment of a tax assessment is a jurisdictional prerequisite to suit in federal district
court). Invoking RFRA, Plaintiff claims that the shared responsibility payment
constitutes a substantial burden on his exercise of religion.
1. RFRA requires a substantial burden on religious exercise.
Congress enacted RFRA “to provide very broad protection for religious
liberty.” Burwell v. Hobby Lobby Stores, Inc., 134 S. Ct. 2751, 2760-61 (2014). In
enacting RFRA, Congress determined that “laws [that are] ‘neutral’ toward
religion may burden religious exercise as surely as laws intended to interfere with
religious exercise. „io 42 U.S.C. § 2000bb(a)(2). “[T]o ensure broad protection for
religious liberty, RFRA provides that the ‘Government shall not substantially
burden a person’s exercise of religion even if the burden results from a rule of
general applicability. ”Td. at 2761 (citing 42 U.S.C. § 2000bb-1(a)). Under,RFRA,
10 A brief historical detour is helpful in understanding the origins of RFRA. In cases including
Sherbert v. Verner, 374 U.S. 398 (1963), and Wisconsin v. Yoder, 406 U.S. 205 (1972), the
Supreme Court used a balancing test to determine whether government actions violated the Free
Exercise Clause of the First Amendment. The balancing test considered whether the challenged
action imposed a substantial burden on the exercise of religion and, if so, whether it was
necessary to serve a compelling government interest. In Employment Div., Dept, of Human
Resources of Ore. V. Smith, 494 U.S. 872 (1990), however, the Court abandoned the balancing
test, holding that religiously neutral laws of general applicability could be applied to religious
practices even absent a compelling government interest. In response to the-Court’s decision in
Smith, Congress enacted RFRA.
11

Case 4:16-cv-00307 Document 67 Filed in TXSD on 11/21/17 Page 12 of 25

a plaintiff makes a prima facie case by “showing that the government substantially
burdens a sincere religious exercise.” Hobby Lobby Stores, Inc. v. Sebelius, 723
F.3d 1114, 1126 (10th Cir. 2013). “If the Government substantially burdens a
person’s exercise of religion, under the Act, that person is entitled to an exemption
from the rule unless the Government ‘demonstrates that application of the burden
to the person—(1) is in furtherance of a compelling government interest; and (2) is
the least restrictive means of furthering that compelling government interest.’”
Hobby Lobby, 134 S. Ct. at 2760-61 (citing 42 U.S.C. § 2000bb-l(b)).
According to the Supreme Court, religious exercise is substantially burdened
“when government action compels an individual ‘to perform acts undeniably at
odds with fundamental tenets of [his] religious beliefs.’” Real Alternatives, 867
F.3d at 356 (quoting Wisconsin v. Yoder, 406 U.S. 205, 218 (1972)).
Where the state conditions receipt of an important benefit upon
conduct proscribed by a religious faith, or where it denies such a
benefit because of conduct mandated by religious belief, thereby
putting substantial pressure on an adherent to modify his behavior and
to violate his beliefs, a burden upon religion exists.
Id. (quoting Thomas v. Review Bd., 450 U.S. 707, 717-18 (1981)).
The threshold question, therefore, is whether the contraceptive mandate
imposes a substantial burden on Plaintiff’s sincere exercise of religion. Plaintiff
asserts that his sincerely held religious beliefs prohibit him from supporting the
provision of certain contraceptive services, including “abortion, contraception, and

12

Case 4:16-cv-00307 Document 67 Filed in TXSD on 11/21/17 Page 13 of 25

sterilization.” ECF No. 32 at 6-7. His religious beliefs lead him to fear possible
“excommunication from the [Catholic] Church” should he “[support] these
activities even indirecdy.” Id. at 6. Defendants do not dispute the sincerity of
Plaintiff’s religious beliefs. ECF No. 37 at 17. Defendants do, however, dispute the
assertion that the contraceptive mandate imposes a substantial burden on Plaintiff’s
exercise of religion. Id.
It is not the Court’s role to “determine what religious observance [a
plaintiff’s] faith commands.” Priests for Life v. U.S. Department of Health and
Human Services, 772 F.3d 229, 247 (D.D.C. 2014). While the Court may not make
this factual inquiry, however, it remains the obligation of the Court to undertake a
legal inquiry into the substantiality of the burden imposed on an individual’s
exercise of religion. See Hernandez v. Commissioner, 490 U.S. 680, 699 (1989)
(distinguishing between factual inquiries into the validity of a plaintiff’s belief, on
the one hand, and legal inquiries into whether an alleged burden is substantial, on
the other hand); See also Bowen v. Roy, 476 U.S. 693, 700-701 (1986) (explaining
that the appropriate “frame of reference” for considering constitutional claims is
“the Constitution, rather than an individual’s religion”). “Whether a burden is
‘substantial’ under RFRA is a question of law, not a question of fact.” Geneva
College v. Secretary U.S. Dept, of Health and Human Services, 778 F.3d 422, 442
(3rd Cir. 2015).
13

Case 4:16-cv-00307 Document 67 Filed in TXSD on 11/21/17 Page 14 of 25

The Court, therefore, is required to objectively assess whether the
contraceptive mandate does, in fact, impose a substantial burden on Plaintiff’s
exercise of religion. The Fifth Circuit has yet to address the issue of whether an
individual suffers a substantial burden on his religious exercise when the
Government regulates group health care plans and health insurance providers,
requiring them to offer coverage that includes contraceptive services the individual
finds objectionable based on his religious beliefs. This claim is distinct from those
RFRA claims found to be meritorious by the Supreme Court in Hobby Lobby, in
which an employer objects to the contraceptive mandate. Real Alternatives, 867
F.3d at 355. To make this determination, the Court must examine the role that an
insured plays in acquiring ACA-mandated coverage, as distinguished from the
employer’s role in providing and funding health insurance coverage under the
ACA.
2. An employer who provides an ACA insurance plan and finds
contraceptive services objectionable to religious beliefs is
substantially burdened.
In Hobby Lobby, the Supreme Court narrowly held that the contraceptive
mandate imposed a substantial burden on the ability of a for-profit closely held
corporation to conduct business in accordance with its religious beliefs. Hobby
Lobby, 134 S. Ct. at 2778-79. In reaching this conclusion, the Court considered
that, to comply with the contraceptive mandate, the employer plaintiffs were
14

Case 4:16-cv-00307 Document 67 Filed in TXSD on 11/21/17 Page 15 of 25

required to provide coverage for and fund contraceptive services that violated their
religious beliefs. Id. at 2754-55, 2781. If the employer plaintiffs refused to do so,
and instead “provided] insurance coverage in accordance with their religious
beliefs,” they would be “force[d]... to pay an enormous sum of money—as much
as $475 million per year in the case of Hobby Lobby.” Id. at 2779.
The Court did not elaborate on the role that the employer plays in the
provision and funding of health care coverage to its employees, but this role is
significant. Prior to the ACA, there was no requirement that an employer provide
its employees with a healthcare plan.11 However, over 60% of the Americans who
have health coverage obtain it through an employer-sponsored plan.12 In 1974, in
recognition of the important role employers play in providing healthcare benefits to
employees, Congress enacted the Employee Retirement Income Security Act
(“ERISA”). ERISA mandated that once an employer decides to offer a health
insurance plan to its employees, the plan must be run in accordance with certain

11 See ERISA and Healthcare Plan Enforcement, FindLaw, http://employment.findlaw.com/wag
es-and-benefits/erisa-and-healthcare-plan-enforcement.html (last visited Nov. 17, 2017); Health
Insurance Is the Foundation of a Comprehensive Benefits Package, The BALANCE,
https://www.thebalance.com/health-insurance-benefits-foimdation-1918146 (last visited Nov. 17,
2017).
12 Michelle Long et al., Trends in Employer-Sponsored Insurance Offer and Coverage Rates,
1999-2014, The Henry J. Kaiser Family Foundation, https://www.kff.org/privateinsurance/issue-brief/trends-in-employer-sponsored-insurance-offer-and-coverage-rates-19992014/ (last visited Nov. 20, 2017).
15

Case 4:16-cv-00307 Document 67 Filed in TXSD on 11/21/17 Page 16 of 25

minimum standards. 29 U.S.C. § 1001.13 In addition, under the fiduciary
responsibilities specified in the law, individuals who manage and control plans
must meet certain standards of conduct.14
An employer has choices with regard to both the design and funding of the
plan.15 With regard to funding, the employer can choose either a fully-insured or a
self-funded plan. Under a fully-insured plan, the employer contracts with an
insurance company to cover employees and their dependents.16 Under a selffunded plan, the employer provides health or disability benefits to employees with
its own funds and assumes direct risk for payment of the claims for benefits. 17
Under either type of plan, the employer designs the plan and determines what
services will be covered.18 The employer can decide to pay the entire cost of
coverage on behalf of its employees, but typically shares the cost with them.19 In

13 Health Plans & Benefits, United States Dept,
health-plans/erisa (last visited Nov. 17, 2017).

of

Labor, https://www.dol.gov/general/topic/

14 Id.
15 What is the Difference Between Self-Funded and Fully-Insured Insurance Plans?, BUSINESS
Benefits Group, https://www.bbgbroker.com/difference-between-self-funded-and-fullyinsured-plans/ (last visited Nov. 17, 2017).
16 Understanding Employer Self-Funding of Employee Health Benefits, Texas Department OF
Insurance, https://www.tdi.texas.gov/pubs/consumer/cbl08.html (last visited Nov. 17, 2017).
17 See id.
18 See id.
19 Health Insurance Is the Foundation of a Comprehensive Benefits Package, The Balance,
https://www.thebalance.com/health-insurance-benefits-foundation-1918146 (last visited Nov. 17,
16

Case 4:16-cv-00307 Document 67 Filed in TXSD on 11/21/17 Page 17 of 25

addition, the employer can determine the rate of reimbursement for covered
services under the plan. The terms of eligibility and covered benefits are set forth
in a plan document, which tells plan participants what the plan provides and how it
operates. 20
In addition to providing and funding health insurance coverage, employers
are required to administer the employee healthcare benefit plan, including enrolling
employees and making changes as necessary, deducting premiums from the
employee's wages and remitting them to the insurance company, acting as a liaison
between employees and the insurer, and, in some cases, terminating benefits and
extending Consolidated Omnibus Budget Reconciliation Act (“COBRA”)
coverage.21 Employers are also responsible for ensuring compliance with reporting
and disclosure requirements.22 It is clear, therefore, that an employer plays a
significant role in the provision of insurance to its employees.

2017); What is the Difference Between Self-Funded and Fully-Insured Insurance Plans?,
Business Benefits Group, https://www.bbgbroker.com/difference-between-self-funded-andfully-insured-plans/ (last visited Nov. 17, 2017).
20 Health Plans & Benefits: Plan Information, UNITED STATES Dept. OF LABOR,
https://www.dol.gov/general/topic/health-plans/planinformation (last visited Nov. 20, 2017).
21 Administering Your Employee Health Care Benefit Plan, BizFiLiNGS, https://www.bizfilings.c
om/toolkit/research-topics/office-hr/administering-your-employee-health-care-benefit-plan (last
visited Nov. 17, 2017).
22 Id.
17

Case 4:16-cv-00307 Document 67 Filed in TXSD on 11/21/17 Page 18 of 25

3. An employee is merely a consumer of healthcare coverage.
In contrast to the active role that an employer plays in making health
insurance coverage available to employees, an employee’s role is that of a passive
recipient of health insurance coverage.
The term “participant,” when used to describe employee recipients of
employer-provided health insurance coverage, is a creation of ERISA. Under
ERISA, a plan participant is “any employee or former employee ... who is or may
become eligible to receive a benefit of any type from an employee benefit plan.”
29 U.S.C. § 1002(7); Firestone Tire & Rubber Co. v. Bruch, 489 U.S. 101, 107
(1989). The term “participant,” therefore, has limited meaning. It connotes nothing
more than a person who may be entitled to a benefit—in this case, the benefit of
health insurance coverage. Cf. Firestone Tire & Rubber Co., 489 U.S. at 107.
ERISA confers several rights upon employee participants in health insurance
plans. These rights include the right to notification, including the right to
disclosure of important plan information, the right to a timely and fair process for
benefit claims, the right to elect to temporarily continue group health coverage
after losing coverage, the right to a certificate evidencing health coverage under a
plan, and the right to recover benefits due under the plan.23 Essentially, these rights
ensure that consumers of health insurance coverage are treated fairly.
23 Health Plans & Benefits: Plan Information, UNITED STATES Dept. OF LABOR,
https://www.dol.gov/general/topic/health-plans/planinformation (last visited Nov. 20, 2017).
18

Case 4:16-cv-00307 Document 67 Filed in TXSD on 11/21/17 Page 19 of 25

A plan participant may decide whether he wants to be covered under the
plan offered. If he does want coverage, then he is required to pay a premium,
which is deducted from his pay check.24 Once enrolled in the plan, the employee
may decide which health care services he requires. After obtaining those health
care services, he submits a claim for reimbursement. While an employer may
underwrite all or part of the cost of an employee’s health insurance coverage, the
employee does not subsidize anyone else’s coverage. This is particularly true in
regard to contraceptive services, as the ACA requires contraceptive services to be
provided at no cost to the employee. The employer bears the entire cost of the
contraceptive mandate.25
4. The Third Circuit has found that the ACA does not impose a
substantial burden on individuals.
Since Hobby Lobby, those courts that have considered whether the
contraceptive mandate may also impose a substantial burden on individuals have
split.26 In a well-reasoned opinion, the Third Circuit - the only circuit court to
24 What is the Difference Between Self-Funded and Fully-Insured Insurance Plans?, Business
Benefits Group, https://www.bbgbroker.com/difference-between-self-funded-and-fully-fundedplans (last visited Nov. 17, 2017); Administering Your Employee Health Care Benefit Plan,
BizFiLINGS, https://www.bizfilings.com/toolkit/research-topics/office-hr/administering-youremployee-health-care-benefit-plan (last visited Nov. 17, 2017).
25 Patient Protection and Affordable Care Act, 42 U.S.C. § 18001 (2010).
26 Compare Real Alternatives, 867 F.3d at 360 (finding that although an individual employee was
a consumer of coverage and availed himself of the ability to be reimbursed for services, he did
not play an active role in his health insurance plan and his connection to other plan members’ use
of contraceptive services was too attenuated to impose a substantial burden on his exercise of
19

Case 4:16-cv-00307 Document 67 Filed in TXSD on 11/21/17 Page 20 of 25

address this issue - concluded that the contraceptive mandate did not impose a
substantial burden on an individual plaintiff’s exercise of religion. Real
Alternatives, 867 F.3d at 360. Examining the role of an individual employee in a
health insurance plan, the Third Circuit concluded that the employee was
essentially a consumer of healthcare coverage. Unlike employers, the Third Circuit
explained, individual employees are not “‘participa[nts]’ [in the health insurance
marketplace] in the real sense of the word.” Id. “Subscribing to an insurance plan
involves no real ‘participation,’ just as there is no active ‘participation’ when
subscribing to a magazine or joining AARP or enrolling in a credit card that has
membership benefits. These are all packages that involve a one-time enrollment,
followed by essentially passive eligibility for certain services that the member opts
in or out of.” Id. at 359. The relationship between an employee’s “decision to sign
up for health insurance on the one hand and the provision of contraceptives to a
particular individual on the other is ‘far too attenuated to rank as substantial.’” Id.
at 360 (citing Hobby Lobby, 134 S. Ct. at 2798-99 (Ginsburg, J. dissenting)). The
Third Circuit added that there “is a material difference between employers
arranging or providing an insurance plan that includes contraceptive coverage - so
that employees can avail themselves of that benefit - and becoming eligible to
religion) with Wieland v. United States Department of Health and Human Services, 196
F.Supp.3d 1010, 1017 (E.D. Mo. 2016) and March for Life v. Burwell, 128 F.Supp.3d 116, 129
(D.D.C. 2015) (finding in both cases that the contraceptive mandate put “‘substantial pressure on
an adherent to modify his behavior and to violate his beliefs.’”).
20

Case 4:16-cv-00307 Document 67 Filed in TXSD on 11/21/17 Page 21 of 25

apply for reimbursement for a service of one’s choosing.” Id. at 361.
This Court agrees with the Third Circuit’s reasoning. Employers and
employees play substantially different roles in the health insurance marketplace. In
holding that the contraceptive mandate imposed a substantial burden on employers
in Hobby Lobby, the Supreme Court focused on the active role that employers play
in the health insurance marketplace. Employers actually provide healthcare
coverage to their employees and subsidize employees’ premiums (and, in
particular, employees’ contraceptive coverage, which is generally provided at no
cost to the employee). See Hobby Lobby, 134 S. Ct. at 2779. Employers must seek
out health insurance companies, evaluate and customize available coverage
options, design a plan, negotiate rates, choose how much to pay toward employees’
premiums, and administer group health plans. Employers act as intermediaries
between health insurance companies, which sell health insurance products to
employers, and employees, who receive reimbursement for health services.
Employees, on the other hand, play a passive role in accepting - or choosing not to
accept - the benefit of health care coverage.
In this case, therefore, the contraceptive mandate did not impose a
substantial burden on Plaintiff’s exercise of religion. To follow the teachings of his
faith, Plaintiff freely made a series of choices. First, he chose to discontinue his
membership in his employer’s health insurance plan. Next, he declined to join a
21

Case 4:16-cv-00307 Document 67 Filed in TXSD on 11/21/17 Page 22 of 25

Christian medical bill sharing organization, although membership in the
organization would have reduced Plaintiff’s health care costs without
compromising his religious beliefs regarding contraceptives. Finally, Plaintiff
chose not to conduct a thorough search for alternative health insurance plans.
Instead, he chose to radically alter his diet to reduce his risk of future disease. ECF
No. 32 at 10.
For Plaintiff, the cost of these choices—choices Plaintiff made of his own
accord—was a shared responsibility payment. Plaintiff was not required, as were
the employer plaintiffs in Hobby Lobby, to actually provide coverage for and
“[fund] . . . specific contraceptive methods.” 134 S. Ct. at 2779. At no time was
Plaintiff forced to “engage in conduct that seriously violate[d] [his] religious
beliefs.” Id. at 2775. Plaintiff was not required to use any of the contraceptive
methods in question. See id. at 2799 (Ginsburg, J., dissenting).

He was not

required to “pay an enormous sum of money” to adhere to his faith; he was simply
required to pay a small penalty. Had Plaintiff maintained coverage through his
former employer, he would have been a passive recipient of benefits, not an active
provider of contraceptive services. Any connection between Plaintiff’s
membership in an employer-provided health care plan and the provision of
contraceptives to another plan member is too attenuated to amount to a substantial
burden. See Real Alternatives, 867 F.3d at 360.
22

Case 4:16-cv-00307 Document 67 Filed in TXSD on 11/21/17 Page 23 of 25

To accept the premise of Plaintiff’s argument as true would mean that a
Jehovah’s Witness could mount a constitutional challenge to a health insurance
plan that provides coverage for blood transfusions. Individuals who are Jewish or
Muslim could challenge a health care plan that provides coverage for medications
derived from pigs. Christian Scientists could challenge a plan that provides
coverage for vaccinations. See Hobby Lobby, 134 S. Ct. at 2805 (Ginsburg, J.,
dissenting); Real Alternatives, 867 F.3d at 364 (listing a wide variety of medical
treatments that some might find objectionable on religious grounds).
Health care plans provide coverage for a smorgasbord of medical services.
In turn, individuals who are covered under the plan are free to choose from among
these services based on myriad factors, including their religious beliefs. See Hobby
Lobby, 134 S. Ct. at 2805 (Ginsburg, J., dissenting); Real Alternatives, 867 F.3d at
360 (the coverage offers a package of health benefits, but does not assure the
availability of those services; it is for the individual employee to seek out and use
or not). To suggest that Plaintiff’s health care coverage somehow facilitates
another person’s decision to obtain contraceptive services, however, is to
fundamentally misunderstand how the ACA works, the health insurance
marketplace functions—and how individuals make personal decisions regarding
their health.

23

Case 4:16-cv-00307 Document 67 Filed in TXSD on 11/21/17 Page 24 of 25

C.

Plaintiff Should Not Be Granted Leave To Amend Again.
“When a plaintiff’s complaint fails to state a claim, the court should

generally give the plaintiff a chance to amend the complaint under Rule 15(a)
before dismissing the action with prejudice, unless it is clear that to do so would be
futile.” Donnelly, 2014 WL 429246, at *2 (citing Great Plains Trust Co. v.
Morgan Stanley Dean Witter & Co., 313 F.3d 305, 329 (5th Cir. 2002) (“[Djistrict
courts often afford plaintiffs at least one opportunity to cure pleading deficiencies
before dismissing a case, unless it is clear that the defects are incurable or the
plaintiffs advise the court that they are unwilling or unable to amend in a manner
that will avoid dismissal.”)). While it is within the discretion of the court to grant
leave to amend, “a plaintiff should be denied leave to amend a complaint if the
court determines that ‘the proposed change clearly is frivolous or advances a claim
or defense that is legally insufficient on its face.’” Id. (citing 6 Charles A. Wright,
Arthur R. Miller & Mary Kay Kane, Federal Practice & Procedure § 1487 (2d
ed. 1990); Ayers v. Johnson, 247 F.Appx. 534, 535 (5th Cir. 2007) (“[A] district
court acts within its discretion when dismissing a motion to amend that is frivolous
or futile.”)).
Here, Plaintiff has already been granted leave to amend. His amended
pleading fails to allege facts sufficient to show he is entided to relief. It would be
futile to allow him to amend because a subsequent regulation has rendered his

24

Case 4:16-cv-00307 Document 67 Filed in TXSD on 11/21/17 Page 25 of 25

claims moot. His statutory claim under RFRA fails, moreover, because he cannot
show a substantial burden on his exercise of religion. The Court, therefore, should
not grant Plaintiff a third bite at the apple.
IV.

CONCLUSION

The Court recommends that Plaintiff’s First Amended Complaint be
DISMISSED WITH PREJUDICE.
Signed on November 21, 2017, at Houston, Texas.

Dena Hanovice Palermo
United States Magistrate Judge

25

Appendix 6: 6/14/2018 Final Judgment

Final judgment

A-28

Case 4:16-cv-00307 Document 78 Filed in TXSD on 06/14/18 Page 1 of 1
United States District Court
Southern District of Texas

ENTERED
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF TEXAS
HOUSTON DIVISION
JOHN J. DIERLAM,
Plaintiff,
v.
DONALD JOHN TRUMP, et al.,
Defendants.

June 14,2018
David J. Bradley, Clerk

§
§
§
§
§
§ CIVIL ACTION NO. 4:16-cv-307
§
§
§
§
FINAL JUDGMENT

In this action against various officials and departments of the federal government,
Plaintiff John Dierlam alleges that provisions of the Patient Protection and Affordable Care Act
violate his rights under the U.S. Constitution and federal law, most notably the Religious
Freedom Restoration Act. (Doc. No. 32.) Defendants moved to dismiss. (Doc. No. 37.) The
Court referred this motion to U.S. Magistrate Judge Dena Palermo, who recommended dismissal
of Plaintiffs claims. (Doc. No. 67.) All parties filed responses to Judge Palermo’s report. (Doc.
No. 73, 75.) At a hearing on June 14, 2018, the Court dismissed Plaintiffs claims, stating its
reasons on the record.
Pursuant to Federal Rule of Civil Procedure 58(a), and for the reasons set forth at the
hearing, final judgment is hereby ENTERED for Defendants.
I

IT IS SO ORDERED.
SIGNED at Houston, Texas on this the 14th day of June, 2018.

KEITH P. ELLISON
UNITED STATES DISTRICT JUDGE

Appendix C: 6/14/2018 Hearing transcript excerpt before Judge Ellison
Case 4:16-cv-00307 Document 80 Filed in TXSD on 06/27/18 Page 37 of 40
"In terms of your particular claims, there are, I think, eight different claims in your
pleadings. The first one is the failure of the government to notify you of non­
enrollment violated ACA. I just

Case 4:16-cv-00307 Document 80 Filed in TXSD on 06/27/18 Page 38 of 40
don't think the ACA provides the proper right of action. I'm sorry." "...There are
many wrongs in our society that do not -- that are not accompanied by legal claims
for relief, and that may be one of them, but I don't think I see it in the ACA. The
Fifth Circuit may see it differently."
"The individual mandate. I think Judge Palermo is correct in dividing those
arguments into 'retrospective' and 'prospective.' I think, prospectively, it seems to
me that most recent legislation does take care of the problem prospectively. I think
the Tax Cuts and Jobs Act of 2017 does take care of it prospectively.
Retrospectively, I'm just unable to conclude that the individual mandate violates
the Religious Freedom Restoration Act. I agree with what the Third Circuit said in
that case that Judge Palermo relied on...the burden, although it's not nonexistent,
is not so substantial that it's a violation of RFRA."

Case 4:16-cv-00307 Document 80 Filed in TXSD on 06/27/18 Page 39 of 40
"The Preventive Services Coverage
Provision of the ACA I don't think violates the establishment clause."
"I don't think the contraceptive coverage with the individual mandates violates
the Equal Protection Clause."
"I don't think the individual mandate exceeded Congress' power under the
Taxing and Spending Clause.”
"I don't think the individual mandate violates the due process clause."
"And I don't think the individual mandate
violates your right to privacy or freedom of association."

A-30

Appendix D: 10/15/2020 Decision of 5th Circuit Court of Appeals

Decision of 5th Circuit Court of Appeals

A-31

Case: 18-20440

Document: 00515603503

Page: 1

Date Filed: 10/15/2020

fHnitetr States Court of Appeals
for tfjc Jfiftlj Circuit

United States Court of Appeals
Fifth Circuit

FILED

October 15, 2020

No. 18-20440

Lyle W. Cayce
Clerk

John J. Dierlam,
Plaintiff—Appellant,
versus
Donald J. Trump, President ofthe United States, in his official capacity
as President of the United States-, United States Department of
Health and Human Services; Alex M. Azar, II, Secretary,
US. Department ofHealth and Human Services, in his official capacity as the
Secretary ofthe US. Department ofHealth and Human Services; United
States Department of Treasury; Steven T. Mnuchin,
Secretary, U.S. Department of Treasury, in his official capacity as the Secretary
of the U.S. Department ofthe Treasury, United States Department
of Labor; Eugene Scalia, Secretary, U.S. Department ofLabor, in his
official capacity as the Secretary ofthe U.S. Department ofLabor,
Defendants—Appellees.

Appeal from the United States District Court
for the Southern District of Texas
USDC No. 4:16-CV-307

Before Clement, Haynes, and Willett, Circuit Judges.
Don R. Willett, Circuit Judge-.

Case: 18-20440

Document: 00515603503

Page: 2

Date Filed: 10/15/2020

No. 18-20440

The Affordable Care Act, now ten years old, is “the most challenged
statute in American history.”1 The ACA’s far-reaching scope has sparked
more than 2,000 legal challenges, including a smattering of suits filed by
individual plaintiffs.2 Over this decade of litigation, no pro se challenge can
likely match the breadth ofJohn J. Dierlam’s, which seeks retrospective and
prospective relief for myriad alleged violations of the United States
Constitution and the Religious Freedom Restoration Act.
But there are jurisdictional issues concerning both the forward- and
backward-looking relief Dierlam seeks. So, as explained below, we decline to
reach the merits of his claims.
First, as Dierlam’s case was progressing, the ACA was evolving. A
year after Dierlam filed his lawsuit, Congress passed and President Donald J.
Trump signed the Tax Cut and Jobs Act, which reduced the sharedresponsibility payment (imposed on individuals who fail to purchase health
insurance) to $0.3 That same year, the Department of Health and Human
Services created new exemptions to the contraceptive mandate, including an
exemption for individuals like Dierlam.4 These exemptions were enjoined
until the Supreme Court’s recent decision in Little Sisters of the Poor Saints
Peter and Paul Home v. Pennsylvania.5 Given the altered legal landscape, and
the potential effects on Dierlam’s request for prospective relief, a mootness
analysis must precede the merits.

1 Abbe R. Gluck et. al., The Affordable Care Act’s Litigation Decade, 108 Geo. L.J.
1471,1472 (2020).
2 Id. at 1521-22.
3

Pub. L. No. 115-97, § 11081,131 Stat. 2054, 2092 (Dec. 22, 2017).

4 82 Fed. Reg. 47792-01 (Oct. 13, 2017).
5140 S. Ct. 2367 (2020).

2

Case: 18-20440

Document: 00515603503

Page: 3

Date Filed: 10/15/2020

No. 18-20440

Second, the parties agree that the district court incorrectly dismissed
Dierlam’s claim for retrospective relief (a refund of his shared-responsibility
payments). The Government argues that, even though Dierlam’s refund
request is jurisdictionally deficient, he should be allowed to amend his
complaint to cure any jurisdictional deficiencies.
Our holding: We vacate the district court’s dismissal of Dierlam’s
claims and remand so that the district court can conduct a mootness analysis
in the first instance and allow Dierlam to amend his complaint.
I
To contextualize Dierlam’s claims, we start with an explanation of the
AC A’s serpentine history, emphasizing the ways in which the individual and
contraceptive mandates have changed over the course of this lawsuit. Then
we discuss the procedural history of Dierlam’s claims.
A
In 2010, President Barack Obama signed the ACA into law.6 As
originally enacted, the AC A’s individual mandate required an “applicable
individual”7 to maintain “minimum essential coverage” (basic health
insurance).8 If an individual failed to comply, and didn’t receive an
exemption, he had to make a “shared responsibility payment” (pay a
penalty) to the IRS.9

6 See Pub. L. No. 111-148,124 Stat. 119 (Mar. 23,2010).
7 26 U.S.C. § 5000A(d)(2)(A), (B).
8 See id. § 5000A(f)(l).
9 See id. § 5000A(b); NFIB v. Sebelius, 567 U.S. 519, 570 (2012) (holding that
Congress “had the power to impose the exaction in § 5000A under the taxing power”).

3

Case: 18-20440

Document: 00515603503

Page: 4

Date Filed: 10/15/2020

No. 18-20440

In 2017, Congress passed and President Trump signed into law the
TCJA, which eliminated the shared-responsibility payment for
noncompliance with the individual mandate.10 But the TCJA did not alter
the existence of the individual mandate—under the statute, an “applicable
individual” must still “maintain minimum essential coverage. »n
The changes to the contraceptive mandate are more complex,
involving “six years of protracted litigation.”12 The AC A requires healthinsurance providers to cover certain preventive services without “any cost
sharing requirements.”13 For women, coverage must include “preventive
care and screenings... as provided for in comprehensive guidelines
supported by” HHS.14 The statute says nothing more, and it doesn’t
mention contraceptives. Under the statute’s direction, though, HHS issued
guidelines requiring coverage of all FDA-approved contraceptives for plan
years beginning on or after August 1, 2012.15 The guidelines provided an
exemption for religious employers, such as churches, and an accommodation
for religious nonprofits.16
After several changes in the exemption and accommodation process,
HHS and the Departments of Labor and the Treasury promulgated two
interim final rules in 2017. “The first IFR significantly broadened the

10 See Pub. L. No. 115-97, § 11081,131 Stat. 2054,2092 (Dec. 22, 2017).
1126 U.S.C. § 5000A(a).
12 Little Sisters ofthe Poor, 140 S. Ct. at 2373.
13 42 U.S.C. § 300gg-13(a).
u Id. § 300gg-13(a)(4).
15 See 77 Fed. Reg. 8725, 8725 (Feb. 15,2012); 76 Fed. Reg. 46,621,46,623 (Aug. 3,
2011).
16 Burnell v. Hobby Lobby Stores, Inc., 573 U.S. 682,698-99 (2014).

4

Case: 18-20440

Document: 00515603503

Page: 5

Date Filed: 10/15/2020

No. 18-20440

definition of an exempt religious employer, ”17 And “[t]he second IFR
created a similar ‘moral exemption’ for employers. ”18 Part of the second
IFR also included an “individual exemption,” which allows “a willing plan
sponsor” or “willing health insurance issuer” to offer a separate policy to
individuals who object to some or all contraceptive services.19 The individual
exemption is completely dependent on an insurer’s willingness to provide a
one-off plan that doesn’t cover contraceptives.20 It “cannot be used to force
a plan (or its sponsor) or an issuer to provide coverage omitting
contraception. >5 21
When the Departments finalized the new exemptions, a district court
enjoined them, and the Third Circuit affirmed the injunction.22 The
Supreme Court recently reversed that decision in Little Sisters ofthe Poor and
remanded the case with instructions to dissolve the nationwide injunction.23
With this background in mind, we turn to the case before us.
B
Dierlam is a devout Roman Catholic who opposes the use, funding,
provision, and support of contraceptives. He believes that life begins at

17 Little Sisters ofthe Poor, 140 S. Ct at 2377.
18 Mat 2378.
19 82 Fed. Reg. at 47,812.

20 Id.
21 Id.
22 83 Fed. Reg. 57,536,57,536 (Nov. 15, 2018) (final religious exemption); 83 Fed.
Reg. 57,592 (Nov. 15,2018) (final moral exemption); Pennsylvania v. President ofthe United
States, 930 F.3d 543,556 (3d Cir. 2019).
23 Little Sisters of the Poor, 140 S. Ct. at 2373 (holding that the AC A authorized
HHS to exempt or accommodate employers’ religious or moral objections to providing nocost contraceptive coverage).

5

Case: 18-20440

Document: 00515603503

Page: 6

Date Filed: 10/15/2020

No. 18-20440

conception, and that “supporting [the practice of abortion, contraception,
and sterilization] even indirectly” contradicts the teachings of the Catholic
Church.
In 2012, Dierlam was enrolled in his employer-provided healthinsurance plan. But after learning about ACA-mandated changes to the
plan’s coverage of contraceptives and “abortion services,” he dropped his
insurance to avoid “supporting] these services through payment of
premiums and fees.” Dierlam then tried and failed to find alternative
insurance plans consistent with his faith. So Dierlam went without insurance,
paid the shared-responsibility payment in 2014 and 2015, and altered his diet
to minimize the need for healthcare services.
In 2016, Dierlam sued the Government pro se, bringing numerous and
novel statutory and constitutional claims.24 Dierlam seeks both retrospective
relief (a refund of his shared-responsibility payments) and prospective relief
(an injunction of the mandates, a declaration that the mandates are
unconstitutional, and a simpler exemption process).
The Government filed a 12(b)(6) motion to dismiss Dierlam’s claims.
Focusing almost exclusively on the RFRA claims, the magistrate judge
recommended granting the Government’s motion in its entirety. At the
hearing on objections to the magistrate judge’s report, the court dismissed
with prejudice all of Dierlam’s claims. Dierlam timely appealed.

24 Dierlam argues that the individual and contraceptive mandates violate RFRA.
Dierlam also brings a claim under § 1502(c) of the ACA for failure to notify him of
insurance exchanges available through the state. Finally, Dierlam raises numerous
constitutional claims, arguing that the individual and contraceptive mandates violate the
Establishment, Free Exercise, and Freedom of Association clauses of the First
Amendment, the Due Process clause of the Fifth Amendment, and the Fourth and Ninth
Amendments.

6

Case: 18-20440

Document: 00515603503

Page: 7

Date Filed: 10/15/2020

No. 18-20440

II
We review Rule 12(b)(6) dismissals de novo.25 But given the ACA’s
recent and relevant changes, we must scrutinize our jurisdiction before we
scrutinize the district court’s judgment. We review jurisdictional questions
de novo.26
We first address our jurisdiction over Dierlam’s request for
prospective relief then briefly turn to retrospective relief.
A
Dierlam seeks various types of prospective relief—an injunction of the
individual and contraceptive mandates, a declaration that the mandates are
unconstitutional, and a simpler and expanded exemption process from the
mandates. But under the TCJA, there is no longer a shared-responsibility
payment for failing to maintain health insurance.27 And the new HHS rules
provide an exemption for individuals, like Dierlam, with moral objections to
contraceptives. So we must ask whether these changes provided Dierlam
with all of the prospective relief he seeks.28 In other words, did these
intervening changes moot Dierlam’s claims?
The doctrine of mootness arises from Article III of the Constitution,
which provides federal courts with jurisdiction over a matter only if there is
alive “case” or “controversy. » 29 « Accordingly, to invoke the jurisdiction of

25 Moon v. City ofEl Paso, 906 F.3d 352,357 (5th Cir. 2018).
26 In re Scruggs, 392 F.3d 124,128 (5th Cir. 2004).
27 See Pub. L. No. 115-97, § 11081,131 Stat. 2054, 2092 (Dec. 22, 2017).
28 Dailey v. Vought Aircraft Co., 141 F.3d 224, 227 (5th Cir. 1998) (“[I]f the facts
suggest mootness,” then “a federal court is obligated to raise the issue. ”).
29 DaimlerChtyskr Corp. v. Cuno, 547 U.S. 332,352 (2006).

7

Case: 18-20440

Document: 00515603503

Page: 8

Date Filed: 10/15/2020

No. 18-20440
a federal court, a litigant must have suffered, or be threatened with, an actual
injury traceable to the defendant and likely to be redressed by a favorable
judicial decision. ”30 This case-or-controversy requirement persists “ through
all stages of federal judicial proceedings. ”31
If an intervening event renders the court unable to grant the litigant
“any effectual relief whatever,” the case is moot.32 But even when the
“primary relief sought is no longer available,” “being able to imagine an
alternative form of relief is all that ’ s required to keep a case alive. ”33 So “ [a] s
long as the parties have a concrete interest, however small, in the outcome of
the litigation, the case is not moot.”34
Further, a case is not necessarily moot because it’s uncertain whether
the court’s relief will have any practical impact on the plaintiff. “Courts often
adjudicate disputes where the practical impact of any decision is not
assured.”35 For example, “the fact that a defendant is insolvent does not
moot a claim for damages.”36 And “ [cjourts also decide cases against foreign
nations, whose choices to respect final rulings are not guaranteed. ”37

30 Chafin v. Chafin, 568 U.S. 165,171-72 (2013) (cleaned up).
31 Id. at 172.
32 Calderon v. Moore, 518 U.S. 149,150 (1996).
33 Univ. of Notre Dame v. Sebelius, 743 F.3d 547, 553 (7th Cir. 2014), judgment
vacated sub nom. Univ. ofNotre Dame v. Burnell, 575 U.S. 901 (2015).
34 Knox v. Serv. Emps. Int’l Union, Local 1000,567 U.S. 298,307-08 (2012).
35 Chafin, 568 U.S. at 175.
36 Id. at 175-76.
37 Id. at 176.

8

Case: 18-20440

Document: 00515603503

Page: 9

Date Filed: 10/15/2020

No. 18-20440

When conducting a mootness analysis, a court must not “confuse[]
mootness with the merits.”38 This means that a court analyzing mootness in
the early stages of litigation need only ask whether the plaintifPs requested
relief is “so implausible that it may be disregarded on the question of
jurisdiction. »39 « [I]t is thus for lower courts at later stages of the litigation to
decide whether [the plaintiff] is in fact entitled to the relief he seeks. »40
Ordinarily, when a case “has become moot on appeal,” the court
should “vacate the judgment with directions to dismiss.”41 But “in instances
where the mootness is attributable to a change in the legal framework govern­
ing the case, and where the plaintiff may have some residual claim under the
new framework that was understandably not asserted previously,” we “va­
cate the judgment and remand for further proceedings in which the parties
may, if necessary, amend their pleadings or develop the record more
fully. » 42
Both the magistrate judge and district court addressed mootness, but
only in part. The magistrate judge found that the latest HHS exemption to
the contraceptive mandate mooted all of Dierlam’s claims for prospective re­
lief. The magistrate judge first stated that the exemption applied to Dierlam,
and thus “[t]he sole issue is whether [Dierlam] can obtain” healthcare cov­
erage under the exemption. Taking judicial notice, sua sponte, of a “Catholic

38 Id. at 174.
39 Id. at 177.
40 Id.
41N. Y. State Rifle & Pistol Ass % Inc. v. City ofN.Y., 140 S. Ct. 1525,1526 (2020)
(citation omitted); see also Diffenderfer v. Cent. Baptist Church ofMiami., Fla., Inc., 404 U.S.
412 (1972) (remanding case to allow amendment of the pleadings after new statute altered
terms of real estate tax exemption at issue).
42 N. Y. State Rifle & PistolAss’n, 140 S. Ct. at 1526 (citation omitted).

9

Case: 18-20440

Document: 00515603503

Page: 10

Date Filed: 10/15/2020

No. 18-20440
health care sharing ministry” she found online, the magistrate judge con­
cluded that Dierlam could “join the Catholic sharing ministry without violat­
ing his beliefs.” Finally, the magistrate judge found that the new HHS ex­
emption would cause “the health care marketplace” to “adapt... to provide
insurance plans that do not cover contraceptive services.” At the time of the
magistrate judge’s report, the HHS exemption was not a final rule.
During the district court’s hearing on the magistrate judge’s report,
the Government said it was no longer pursuing a mootness argument
concerning the exemption (still in an interim state). But it maintained that
Dierlam’s ability to find alternative insurance plans mooted his claims. The
district court then raised the TCJA, which became law after the magistrate
judge issued her report but before the hearing. The Government said the new
statute mooted only claims based on the individual mandate’s sharedresponsibility payment. From the bench, the district court held that the
TCJA mooted Dierlam’s claims for prospective relief concerning the
individual mandate. And then it dismissed the remainder of Dierlam’s claims
with prejudice.
On appeal, the Government continues to argue that the TCJA moots
only Dierlam’s claims for prospective relief from the individual mandate. It
only mentions the HHS exemption in a footnote, noting that the exemption
was enjoined at the time. Dierlam argues that neither the T CJ A nor the latest
HHS exemption moot his claims. He asserts that, even though the TCJA
reduced the shared-responsibility payment to $0, the mandate remains. And
he asserts that the new exemption is “worthless.” After the parties
completed their briefing, the Supreme Court dissolved the nationwide
injunction of the relevant HHS exemption to the contraceptive mandate.43

43 Little Sisters ofthe Poor, 140 S. Ct. at 2373.

10

Case: 18-20440

Document: 00515603503

Page: 11

Date Filed: 10/15/2020

No. 18-20440

In sum, the mootness arguments below and on appeal were made
piecemeal because of the way the AC A was changing in real time. And the
magistrate judge’s and district court’s partial mootness analyses were
problematic. Thus, the mootness analyses so far have been incomplete and
incorrect.
First, it’s unclear what effect the district court thought the TCJA had
on the mootness of Dierlam’s claims. At the hearing, the district court only
said: “I think, prospectively, it seems to me that most recent legislation does
take care of the problem. ”
Second, the magistrate judge’s conclusion about the insufficiency of
Dierlam’s search for alternative health-insurance plans, including taking sua
sponte judicial notice of a Catholic healthcare-sharing ministry, is irrelevant
to the mootness determination. Dierlam says the sharing ministry is not a
viable option for him. And he says that the magistrate judge’s conclusion
about his search for insurance “is factually incorrect.” It is inappropriate to
resolve these types of factual disputes at the pleadings stage to determine
mootness. These are merits issues, not mootness issues.
With the relevant legal standards explained above, we vacate and re­
mand for the district court to conduct a thorough mootness analysis in the
first instance. If necessary, the district court should allow the parties to
- amend their pleadings to address the intervening changes to the individual
and contraceptive mandates.
B
We also vacate and remand Dierlam’s claim for retrospective relief in
which he seeks a refund of his 2014 and 2015 shared-responsibility payments.
The parties agree that the district court incorrectly dismissed Dierlam’s
claim with prejudice, and the Government argues that Dierlam is entitled to
amend his complaint to cure any jurisdictional deficiencies. Given the

ll

Case: 18-20440

Document: 00515603503

Page: 12

Date Filed: 10/15/2020

No. 18-20440

circumstances of this case, Dierlam should be allowed to amend his
complaint.44
III
For the reasons explained above, we VACATE the district court’s
dismissal of Dierlam’s claims and REMAND for further proceedings
consistent with this opinion and any ensuing precedents. If a party to this case
later files a notice of appeal, the appeal should be assigned to the same
panel.45

44

While a court can dismiss a deficient pleading, it should provide “at least one
opportunity to cure pleading deficiencies before dismissing a case, unless it is clear that..
. the plaintiffs advise the court that they are unwilling or unable to amend in a manner that
will avoid dismissal.” Great Plains Tr. Co. v. Morgan Stanley Dean Witter & Co., 313 F.3d
305, 329 (5th Cir. 2002) (emphasis added). For pro se plaintiffs, 12(b)(6) dismissals “are
disfavored, [and] a court should grant a pro se party every reasonable opportunity to
amend.” Hale v. King, 642 F.3d 492,503 n.36 (5th Cir. 2011).
Also, the Government states that Dierlam is seeking a refund for 2016. But
Dierlam’s complaint only refers to payments made in 2014 and 2015. Even so, the
Government is correct that Dierlam requested his 2015 refund in April 2016 and filed his
amended complaint only three months later, which was too soon. The relevant statute, 26
U.S.C. § 6532, states that a taxpayer seeking a refund cannot file a lawsuit until at least six
months after filing a refund claim with the IRS.
45 See Constructora Subacuatica Diavaz, S.A. v. M/VHiryu, 718 F.2d 690,693 (5th
Cir. 1983).

12

Additional material
from this filing is
available in the
Clerk's Office.

